                                     u.s. SMALL BUSINESS ADMINISTRATION
                                          OFFICE OF INSPECTOR GENERAL



                                                                                                 ADVISORY MEMORANDUM
                                                                                                          REPORT No. 12-18

DATE:              AUGUST 16, 2012

To:                John A. Miller
                   Director, Office of Financial Program Operations

SUBJECT:           A Detailed Repayment Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to
                   Prevent Future Improper Payments

Summary

In March 2012, our office issued Report No. 12-11R, High-Dol/or Early-Defaulted Loans Require an
Increased Degree of Scrutiny and Improved Quality Control at the National Guaranty Purchase Center.
In that report, we identified a concern regarding the National Guaranty Purchase Center's (NGPC)
assessment of the quality and accuracy of lender underwriting. Specifically, we noted our concern that
the NGPC's limited review of lender underwriting, including repayment ability analysis, was not
consistent with statutory and regulatory authority and was contrary to SBA procedures. As follow-on to
that report, we conducted a limited scope audit of the Small Business Administration's (SBA or the
Agency) analysis of repayment ability during guaranty purchase reviews at the NGPC. In summary, this
audit found that the assessment of delegated lender underwriting performed at the NGPC on early­
defaulted loans was not effective in identifying whether lenders were clearly negligent in determining
the borrowers' repayment ability. Based on previous audit work, our analysis indicated that improved
reviews for repayment ability could result in a cost savings to the SBA of at least $43 million over the
next two years.

The objective of the audit was to determine why adequate reviews of repayment ability were not being
performed and the amount of federal funds that could be saved if the SBA thoroughly reviewed
repayment ability during the guaranty purchase review of early-defaulted loans.l In meeting the
objective, we reviewed repayment ability deficiencies identified during various Office of Inspector
                                                                 2
General (OIG) audits conducted from January 2008 to June 2012. We also reviewed information in the
SBA's Loan Accounting System. Furthermore, we interviewed SBA management officials and current
and former SBA loan specialists to gain an understanding of the history and type of repayment ability



1 Standard Operating Procedure (SOP) 50513, Loan Liquidation, defines early-defaulted loans as those loans that default within
  18 months of initial disbursement of the proceeds from an SBA loan. If the final disbursement occurs more than six months
  after initial disbursement, the 18-month period begins from the date of the final disbursement.
2 We performed fieldwork for these audits between January 2008 and June 2012. OIG Report 9-16, The Small Business

  Administration's Fiscal Year 2008 Improper Payment Ratefor the 7(a) Guaranty Loan Program, July 10, 2009; OIG Report 9-18,
  SBA's Management of the Backlog of Post-Purchase Reviews at the National Guaranty Purchase Center, August 25,2009; OIG
  Report ROM 10-19, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans, September 24,
  2010; OIG Report ROM 11-06, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
  Questioned Costs, August 22, 2011; Project 11008, Audit of SBA's FY 2011 Improper Payment Rate.
analyses conducted during purchase reviews at the SBA. We also held a meeting with representatives
from SBA's lending community and conducted research on the oversight of lender underwriting
practices performed by federal regulators from the Federal Deposit Insurance Corporation and other
federal agencies with guaranteed loan programs. To assess the internal controls relevant to our
objective, we examined the SBA's policies and procedures regarding loan origination, closing, and
guaranty purchase.

We conducted this audit between November 2011 and March 2012 in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Background

The SBA is authorized under Section 7(a) of the Small Business Ace to provide financial assistance to
small businesses in the form of government-guaranteed loans. The SBA's 7(a) loans are made by
participating lenders under an agreement to originate, service, and liquidate loans in accordance with
SBA's rules and regulations and prudent lending standards. Some 7(a) loans are made by lenders using
delegated authority, which undergo very limited review by the SBA prior to loan disbursement.
Others are subject to more extensive underwriting and eligibility review and approval by the SBA before
loan disbursement. When a loan goes into default, the SBA will conduct a review of the lender's actions
on the loan to determine whether it is appropriate to pay the lender the guaranty (which SBA refers to
as a guaranty IIpurchase"). Under SBA regulations,4 the SBA is released from liability on the guaranty, in
whole or in part, if the lender fails to comply materially with any SBA loan program requirement or does
not make, close, service or liquidate the loan in a prudent manner.

The guaranty purchase review is SBA's primary control for ensuring lender compliance and preventing
improper payments in the 7(a) Program. The Improper Payments Elimination and Recovery Act of 2010
(IPERA),s defines improper payments as expenditures that either should not have been made or were
made in incorrect amounts under statutory, contractual, administrative, or other legally applicable
requirements.

                                                                    6
The Office of Management and Budget (OMB) guidance for the Improper Payments Information Act of
2002 (IPIA) and IPERA require agencies to conduct improper payment reviews for all programs and
activities susceptible to significant improper payments, and to annually report their improper payment
results to the President and Congress. For those programs and activities susceptible to significant
                                                                                                 8
improper payments/ the guidance also requires agencies to take actions to reduce and recover


3   Public Law 85-536, as amended. 

413 Code of Federal Regulations (CFR) § 120.524. 

5   Public Law 111-204. The IPERA amends the Improper Payments Information Act of 2002 (IPIA). Even though IPERA amends 

    IPIA, the authorizing legislation is still named IPIA.
6   Memorandum M-11-16, Issuance of Revised Parts I and /I to Appendix C of OMB Circular A-l23.
7   The SSA 7(a) business loan program has been identified by OMS as susceptible to significant improper payments.
8   For those programs and activities that have annual gross improper payment estimates that exceed $10 million.


                                                                2
improper payments. Improper payments in the guaranty purchase process arise when an SBA purchase
reviewer fails to identify material lender deficiencies in the handling of an SBA guaranteed loan.

During the audit of purchased 7(a) Recovery Act loans,9 we obtained evidence supporting the fact that
the NGPC's purchase review process did not require loan specialists to scrutinize credit decisions made
by lenders on early-defaulted loans. Specifically, for loans that defaulted early, loan specialists did not
analyze the reasonableness of the lenders' underwriting, including lender assessment of borrower
                                                   10
repayment ability. Furthermore, prior GIG audits have identified loans with repayment ability
deficiencies that were improperly purchased by the SBA, resulting in questioned costs of approximately
$4.5 million.

The potential for future improper payments due to unidentified repayment ability deficiencies is of
substantial concern given the recent statutory increase in loan limits and the $5 billion increase in the
SBA's lending volume from Fiscal Year (FY) 2010 to FY 2011. Specifically, the Small Business Jobs Act of
      11
2010 increased the maximum 7(a) loan amount from $2 million to $5 million, which increased the
maximum SBA guaranteed amount to $3.75 million.12 From FY 2010 to FY 2011, the volume of section
7(a) loans approved by the SBA grew from 52,936 to 53,707, or 1.46 percent. However, the SBA's
guaranteed share of these loans increased from $10.3 billion to $15.4 billion, or 50 percent.
The average loan size in the SBA's portfolio is increasing. As the average loan amount increases, there is
a risk that the average loan amount requested by lenders for purchase will also increase. Therefore, it is
important to prevent similar repayment ability deficiencies from going undetected as the risk of loss to
the SBA becomes even greater.

Results

SBA's Assessment of Lender Underwriting during the Purchase Review Process was Inconsistent with
Its Own Regulations and Procedures and Improvements Could Provide the SBA the Opportunity to Put
Funds to Better Use

The assessment of delegated lender underwriting performed at the NGPC on early-defaulted loans was
not effective in identifying whether lenders were clearly negligent in determining the borrowers'
repayment ability. As a result, the NGPC made improper payments by inappropriately purchasing the
SBA guaranties on early-defaulted loans that did not have repayment ability, which resulted in
unnecessary losses to the Agency. Furthermore, based on previous audit work, our analysis indicated
that improved reviews for repayment ability could result in a cost savings to the SBA of at least $43
million over the next two years.




9 	OIG Report No 12-11R, High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
  Control at the National Guaranty Purchase Center, March 23, 2012.
10 See footnote number 2 on page 1.

11 Public Law 111-240, Small Business Jobs Act of 2010, September 27,2010.

12 	For loans approved from September 27, 2010 through December 31,2010, the maximum SBA guaranteed amount was

   $4,500,000 because of the temporary 90 percent SBA guaranty on eligible 7(a) loans established under the American
   Recovery and Reinvestment Act of 2009.
                                                              3
In accordance with IPERA, agencies are required to take actions to reduce improper payments.
According to SBA regulations,13 the applicant must be creditworthy and loans must be so sound as to
                                                         14
reasonably assure repayment. The SBA's own procedures state that,

            on SBA-guaranteed loans, the cash flow of the small business applicant is the primary source of
            repayment, not the liquidation of collateral. Thus, if the lender's financial analysis demonstrates
            that the small business applicant lacks reasonable assurance of repayment in a timely manner
            from the cash flow of the business, the loan request must be declined, regardless of the
            collateral available.

                                                                       5
According to SBA procedures for early-defaulted loans/ during the purchase review, the SBA must
review the lender's purchase package with the IIhighest degree of scrutiny." Also, the recommending
official must determine whether the lender's failure to make or close the loan in accordance with SBA
requirements or prudent lending practices allowed or contributed to the early default. If the SBA
purchase review indicates that the lender's actions or omissions resulted in a loss to the SBA, the
procedures provide that repair or denial of the guaranty is appropriate. These same procedures define a
repair as a specific agreed-upon dollar amount between the SBA and a 7(a) lender, which represents the
actual or anticipated loss, caused by the lender and is deducted from the SBA's guaranty payment.
Furthermore, the procedures explain that a denial of the SBA's liability is justified when a lender's
actions or omissions caused, or could cause a material, total, or near total loss on a loan.

We determined that the NGPC did not adequately assess lender underwriting during purchase reviews
based on interviews with current and former SBA and NGPC officials who managed the NGPC operations
or had performed purchase reviews. Management at the NGPC required loan specialists to perform a
superficial review of the lenders' credit memorandum, which did not allow them to determine whether
early-defaulted loans approved under delegated authority had repayment ability. Specifically, according
to SBA management and a NGPC document describing the purchase review process, the NGPC's
assessment of creditworthiness was limited to verifying that the lender's credit memorandum included
                   16
certain elements. However, loan specialists were not expected to evaluate whether the financial
analyses of repayment ability performed by the lenders actually demonstrated reasonable assurance of
repayment from the cash flow of the business. This limited assessment was performed regardless of the
loan amount and was inconsistent with SBA's procedures which call for lithe highest degree of scrutiny"
on early-defaulted loans. As a result, the NGPC inappropriately purchased the SBA guaranties on early­
defaulted loans that did not have repayment ability and incurred unnecessary losses to the Agency.
While this can occur regardless of the dollar amount, prior audits have identified the issue to be
                            17
significant with high-dollar early-defaulted loans.

                                                                                                            18
Historically, high-dollar loans have much lower early-default rates than smaller loans. For example,
since 2007, high-dollar loans accounted for just about 6 percent of all early-defaulted loans.




13   13 CFR § 120.150. 

14   Standard Operating Procedure (SOP) 50 10 5(D), Lender and Development Company Loan Programs. 

15   SOP 50 51 3, Loan Liquidation. 

16   These elements include collateral, credit history, credit elsewhere, management, capitalization, and repayment ability. 

17   For the purposes of this report, high-dollar loans are defined as those loans that were approved for $500,000 or more. 

18   For the purposes of this report, smaller loans are defined as those loans that were approved for less than $500,000.
                                                                  4
Nevertheless, these loans account for a significant portion of the guaranty amounts purchased by the
SBA on early-defaulted loans. For example, since 2007, high-dollar loans accounted for approximately
$469 million, or 48%, of the guaranty amounts purchased by the SBA on early-defaulted loans.
As a result, when high-dollar loans default early, the SBA should consider them IIhigh-risk" and scrutinize
the lenders' underwriting, including their repayment ability analyses.

                                                    19
Since 2008, we have performed five audits that focused on the origination, closing, servicing,
liquidation, or purchase actions on problem or defaulted 7(a) loans. During these audits, we reviewed
21 high-dollar early-defaulted loans approved by lenders under delegated authority. We determined
that 8 of these loans, or 38 percent, did not have repayment ability (see Appendix II for a summary of
                                                20
the deficiencies identified on these loans). Six of these eight loans were inappropriately purchased by
the NGPC resulting in questioned costs of approximately $4.5 million. While the remaining two loans
have not been purchased, they still represent inappropriate loan approvals by the lenders of
approximately $1.5 million. In consideration of our findings on the six loans, the SBA was able to
recover approximately $2 million on two loans. For the remaining four of the six loans purchased by the
NGPC, either recovery efforts are still underway or the SBA did not seek recovery from the lenders due
to extenuating circumstances (i.e. statute of limitations, lender out of business).21

Based on our results, the credit memorandum reviews performed by the NGPC loan specialists were not
effective to identify whether lenders were clearly negligent in determining the borrowers' repayment
ability. Thus, SBA funds could be put to better use if loan specialists thoroughly analyzed repayment
ability during the guaranty purchase reviews of high-dollar early-defaulted loans approved under
delegated authority. We estimated that thorough reviews leading to repairs and denials made by the
SBA-on high-dollar early-defaulted loans that lack repayment ability-could result in cost savings of at
least $43 million (See Appendix I for additional information on the details of our analysis).

Historically, the SBA has delegated the credit decisions to the lenders for loans approved under the
SBA's Preferred Lenders Program (PLP)22 and had instructed its loan specialists to not second-guess
lenders' credit decisions. This was evident from interviews we conducted with SBA management
officials. Prior to centralizing the guaranty purchase process at the NGPC in 2004, purchase reviews
                                          23
occurred in the SBA's 70 district offices. There was much inconsistency in the district office reviews,
including how repayment ability was analyzed. The inconsistencies in the purchase review process
continued after the centralization and until the NGPC underwent a business process re-engineering in
2007, which included revisions to its guaranty purchase process.

During this re-engineering process, the Office of Financial Assistance (OFA) instructed the NGPC to
standardize its reviews of the lenders' credit memorandum (including repayment ability) on early­




19   See footnote number 2 on page 1.
20  See Appendix II: High-Dollar Early-Defaulted Loans with Repayment Ability Deficiencies, loan numbers   [Ex. 4]
      [Ex. 4]    ,   [Ex. 4]   ,   [Ex. 4]     , [Ex. 4]  , and  [Ex. 4]  .
21 See Appendix II: High-Dollar Early-Defaulted Loans with Repayment Ability Deficiencies, loan numbers    [Ex. 4]
       [Ex. 4]   ,    [Ex. 4] , and      [Ex. 4]  .
22 	Under the PLP, SBA authorizes experienced lenders to make SBA guaranteed loans, subject only to a brief eligibility review

    and assignment of a loan number by the SBA. In addition, PLP lenders are expected to handle servicing and liquidation of
    their SBA loans with limited involvement of the SBA.
23 See SBA's Budget Request and Performance Plan, FY 2003 Congressional Submission.

                                                                5
defaulted loans. Specifically, the OFA directed the NGPC to review only the credit memorandum
components and to not second-guess the lenders' credit decisions. An internal document developed in
September 2011 and approved by NGPC management confirmed this directive and clarified the credit
memorandum elements that would be evaluated for early-defaulted loans. These clarifications were
still not sufficient for loan specialists to determine whether lenders were clearly negligent in
determining the borrowers' repayment ability. We also found that loan specialists at the NGPC had not
been trained to perform a detailed analysis of repayment ability.

Conclusion

The SBA will continue to incur unnecessary losses on early-defaulted loans if the NGPC does not
implement a process to verify compliance with SBA repayment ability requirements. Additionally, until
this change is made, the SBA will not be in full compliance with IPERA because it will not identify
improper payments resulting from repayment ability deficiencies. We believe, at a minimum, an
effective review for repayment ability on early-defaulted loans should include a thorough examination
of the credit memorandum, and verification that:

    • 	 cash flow was calculated correctly (included appropriate adjustments and no material errors),
    •	   projected revenues exceeded projected expenses,
    •	   projections were adequately supported by reasonable assumptions, and
    •	   historical figures used by lenders were supported by historic financial statements or tax 

         transcripts for existing businesses. 


Furthermore, the NGPC purchase staff will require training to perform effective reviews for repayment
ability and prevent future improper payments. We estimate that if the Agency implements
Recommendations No.1 and No.2, which specifically address these issues, a cost savings of at least
$43 million will be realized over the next two years. Finally, as this report focuses on the risk to the SBA
for high-dollar early-defaulted loans, we believe it would also be beneficial for the SBA to perform
detailed analyses of repayment ability for smaller lender-approved early-defaulted loans.

Recommendations

We recommend that the Director, Office of Financial Program Operations:

    1. 	 Direct the NGPC to revise its purchase process for high-dollar early-defaulted loans approved by
         lenders to verify compliance with SBA's repayment ability requirements, including the
         performance of a detailed analysis of the lenders' com putation of repayment ability.

    2. 	 Properly train NGPC purchase staff in the revised purchase process to perform effective analyses
         of lenders' repayment ability computations and verify compliance with SBA requirements.

    3. 	 Perform a risk assessment to determine if it is beneficial for purchase reviews of smaller (less
         than $500,000) lender-approved early-defaulted loans to include a detailed analysis of the
         lenders' computation of repayment ability.




                                                     6
Agency Comments and Office of Inspector General Response

On June 21, 2012, we provided a draft of this memorandum to the SBA for comment. On July 24, 2012,
the SBA provided written comments, which are summarized below and contained in their entirety in
Appendix III. The SBA agreed or partially agreed with all of the recommendations and the SBA's
comments, proposed actions, and actions taken were responsive to the recommendations.

Management Comments

Management stated that it is fully committed to eliminating improper payments from all SBA loan
programs. Management cited its efforts to date to improve the quality of lender credit underwriting
and the underwriting reviews performed at the NGPC, including enhanced training and quality control
feedback. Management's response also stated that it has formed a working group to review its
Standard Operating Procedures and determine whether additional clarity is needed for lenders and staff
to apply consistent underwriting standards. Further, management's response recognized that cost
savings will occur by looking more carefully at high-dollar early-defaulted loans, but cited its plan to
determine the accuracy of the OIG's $43 million estimate. Finally, management stated that it did not
agree that all eight cases cited by the OIG as examples of loans with repayment ability deficiencies
warranted denial for credit analysis alone and had other factors warranting their denial.

DIG Response

We commend the Agency for recognizing the need to improve its reviews of lender underwriting on
high-dollar early-defaulted loans and for its training efforts to date. The $43 million funds for better use
estimate covers a two-year period and assumes both years' activities are largely comparable.
This estimate was derived in coordination with our statisticians based on the results of two loans that
the Agency agreed had material lender noncompliance with the SBA's repayment ability requirements.
The statistically valid methodology used to reach this estimate is disclosed in Appendix I of this report.
We agree that many of the other cases cited as examples in this report included additional material
deficiencies that could also support denial of liability. However, we maintain that the repayment ability
deficiencies noted for each example in Appendix II of this report demonstrates material noncompliance
or gross negligence on behalf of the lender that alone support denial of the SBA's guaranty.

Recommendation 1

Direct the NGPC to revise its purchase process for high-dol/or early-defaulted loans approved by lenders
to verify compliance with SBA's repayment ability requirements, including the performance of a detailed
analysis of the lenders' computation of repayment ability.

Management Comments

The SBA partially agreed with our recommendation. Management stated that it is in the process of
augmenting its purchase review process on high-dollar early-default loans to include identification of
material deficiencies in a lender's analysis of repayment ability. Management also stated that it has
made recent process improvements in this area by allocating additional review time for high-dollar
early-default loans. Finally, management stated it will perform further analysis on the OIG's $43 million
estimate of funds for better use to determine its accuracy.
                                                     7
DIG Response

The SBA's comments are responsive to the recommendation. As discussed above, the $43 million funds
for better use estimate covers a two-year period and assumes both years' activities are largely
comparable. This estimate was derived in coordination with our statisticians using loans that the Agency
agreed had material lender noncompliance with the SBA's repayment ability requirements.
The statistically valid methodology used to reach this estimate is disclosed in Appendix I of this report.

Recommendation 2

Properly train NGPC purchase staff in the revised purchase process to perform effective analyses of
lenders' repayment ability computations and verify compliance with SBA requirements.

Management Comments

The SBA agreed with our recommendation. Management stated that it will continue to train NGPC
purchase staff in the revised purchase process to perform effective analyses of lender's repayment
ability computations and verify compliance with SBA requirements.

DIG Response

The SBA's comments are responsive to the recommendation.

Recommendation 3

Perform a risk assessment to determine if it is beneficial for purchase reviews of smaller (less than
$500,000) lender-approved early-defaulted loans to include a detailed analysis of the lenders'
computation of repayment ability.

Management Comments

The SBA agreed with our recommendation. Management stated a risk assessment will be performed to
determine if it is beneficial for purchase reviews of other lender approved early-default loans to include
a detailed analysis of the lender's computation of repayment ability.

DIG Response

The SBA's comments are responsive to the recommendation.

Actions Required

Please provide your management response for each recommendation on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days from the date of this report. Your responses should
identify the specific action(s) taken or planned for each recommendation and the target date(s) for
completion.



                                                     8
We appreciate the courtesies and cooperation of the Small Business Administration during this audit.

If you have any questions concerning this report, please call me at (202) 205-7390 or Terry Settle,
Director, Credit Programs Group at (703) 487-9940.


                                                   ***

/5/ original signed
John K. Needham
Assistant Inspector General for Auditing




                                                    9
Appendix I. Funds Be Put to Better Use

Under the Inspector General Act of 1978, as amended,24 IIfunds be put to better use" is defined as funds
that could be used more efficiently if management of an establishment took actions to implement and
complete the recommended action. This includes costs not incurred by implementing recommended
improvements related to the operations of the establishment, a contractor, or grantee.

We used results from the 2008 Improper Payments (2008 IPIA) audit to establish an amount of funds
that could be put to better use if the SBA thoroughly analyzed repayment ability during the guaranty
purchase reviews of early-defaulted loans. This audit encompassed a full year of SBA purchases totaling
                                              2s
13,022 loans for approximately $869 million. From these purchases, we identified a population of 139
                                  26
high-dollar early-defaulted loans with SBA guaranteed payment amounts totaling $94.2 million.
We audited two of the 139 loans during the 2008 IPIA audit. We identified lender noncompliance with
the SBA's repayment ability requirements on both of these loans. These two loans resulted in total
improper payments of approximately $2 million.

Using the audit population and results described above, our statistician calculated an estimate of the
minimum improper payment rate in the population. The calculations performed by the statistician
provided that if there were only two improper payments in the population of 139 transactions, it is
extremely unlikely that both of them would be selected in a sample size of two. In fact, there was only a
1-in-9,591 chance for that to occur. Using this information and a 95% confidence interval, the
statistician then determined the number of loans within the population that had repayment ability
deficiencies that resulted in improper payments. Specifically, they estimated the lower bound of a
one-sided 95% confidence interval. As a result, we can be 95% confident that the improper payment
rate was at least the estimated lower bound shown below.

Based on the statistician's methodology, in terms of the number of loans, this bound was determined to
be at least 22.3%, or 31, of the 139 loans. The methodology is based on a Hypergeometric probability
density:




where (~) is the number of combinations of sample size M from which two improper payments are
selected. The second part of the numerator             (1390-M) is the number of combinations of 139-M proper
payments from which none were selected in the sample. The lower bound of a one-side 95% confidence
interval is the lowest M such that f(M) ~ 5%? Based on the above equation, f(31) ;:::: 4.85%. In terms




24   5 USC App. 3. 

25   These loans were purchased between April 1, 2007 and March 31,2008. 

26   Loans approved by delegated lenders for $500,000 or more that defaulted within 18 months and were purchased at the 

     NGPC.
                                                              10
                                                                                   27
of dollars, this bound was determined to be 22.8%, or $21.5 million                     of the $94.2 million in the
population.

As a result, we conclude with 95% confidence that there were at least 31 loans totaling approximately
$21.5 million that lacked repayment ability and should not have been purchased by the NGPC.
Projecting the $21.5 million over the next two years, we believe the SBA will realize a cost savings of at
least $43 million (less any associated costs) if the NGPC revises its purchase process to include a detailed
repayment ability analysis for high-dollar early-defaulted loans.




27   This dollar amount was determined by including the 2 loans that were actually tested and conducting 1,000 simulation runs
     of 29 additional randomly selected improper payments and using the average total dollar amount. As a result, each
     simulation run had a total count of 31 improper payments and their total payment amount was divided by the total payment
     amount for the entire population of 139 loans.


                                                                11
Appendix II. High-Dollar Early-Defaulted Loans with Repayment Ability Deficiencies

       Loan       Borrower                                       Approved     Questioned   Recoveries
#                                Deficiency Description
      Number       Name                                           Amount        Costs"       Made
                               The lender based its cash
                               flow on figures recorded
                               under the accrual method of
                               accountlng,andignoredthe
                               impact of changes on the
                               balance sheet. The lender
                               did not take into
                               consideration the increase in
                               Accounts Receivable and
1      [Ex. 4]      [Ex. 4]    increase in Accounts              $560,000      $456,426       $0*
                               Payable. While the lender
                               calculated a positive cash
                               flow of $209,500, we
                               conducted our own cash
                               flow analysis using the Cash
                               Flow Statement Method
                               approach and determined
                               the business had a negative
                               cash flow of -$92,643.
                               The lender failed to
                               adequately demonstrate
                               repayment ability from a
                               Cash Flow Statement as well
2     [Ex. 4]        [Ex. 4]                                     $2,000,000   $1,464,279   $1,484,235*
                               as verify that the liquid
                               assets of the borrowers were
                               sufficient to initially service
                               the SBA debt.
                               The lender inappropriately
                               added back $209,000 of
                               personal income and a
                               partner's $29,000
                               guaranteed payment without
3     [Ex. 4]       [Ex. 4]    explanation. When we              $1,345,000    $984,124       $0*
                               removed these items from
                               the cash flow computation,
                               the business did not
                               demonstrate repayment
                               ability.




                                                 12
Appendix II. High-Dollar Early-Defaulted Loans with Repayment Ability Deficiencies


      Loan       Borrower                                      Approved     Questioned   Recoveries
#                            Deficiency Description
     Number       Name                                          Amount        Costs"       Made
                             The lender's cash flow
                             analysis did not consider the
                             impact the two affiliated
                             businesses would have on
                             the borrower's repayment
                  [Ex. 4]    ability. According to the
4    [Ex. 4]                                                   $675,000      $506,250    $522,894*
                             lender's credit
                             memorandum, these two
                             businesses were not
                             sufficient to cover the
                             borrower's personal living
                             expenses.
                             The historical and interim
                             debt service coverage was
                             inadequate. Repayment
5    [Ex. 4]      [Ex. 4]    ability was based on              $1,115,900    $998,033       $0*
                             projections without
                             underlying reasonable
                             assumptions.
                             The lender used projected
                             cash flow for an existing
                             business to show repayment
                  [Ex. 4]    ability, which historically had
6    [Ex. 4]                                                   $525,000      $79,622        $0*
                             negative cash flow. The
                             projections included a 149
                             percent increase in sales that
                             was not justified.
                             A CPA-prepared statement of
                             cash flow included in the
                             lender's loan file
                             demonstrated that the
                             borrower did not have
                             repayment ability. It appears
                             that the lender ignored the
                             CPA-prepared statement and
7    [Ex. 4]      [Ex. 4]    instead calculated                $976,000        $0­           $0
                             repayment ability using the
                             rule of thumb method. It
                             was imprudent to ignore a
                             professionally prepared
                             statement and rely solely on
                             a self-prepared rule of
                             thumb computation to
                             support loan approval.




                                                 13
Appendix II. High-Dollar Early-Defaulted Loans with Repayment Ability Deficiencies


         Loan             Borrower                                                   Approved          Questioned           Recoveries
#                                            Deficiency Description
        Number             Name                                                       Amount             Costs"               Made
                                            The lender prepared both
                                            Uniform Credit Analysis
                                            (UCA) and rule of thumb
                                            cash flow statements. The
                                            UCA cash flow statement
                                            clearly reflected the
                                            borrower's inability to repay
                                            the loan, butthelender
8       [Ex. 4]             [Ex. 4]         approved the loan relying on              $500,000               $0­                 $0
                                            the rule of thumb cash flow
                                            method for which some of
                                            the relied-upon figures could
                                            not be verified. We also
                                            found that the lender did not
                                            consider an affiliate of the
                                            borrower in its cash flow
                                            computations.
     Totals                                                                         $7,696,900         $4,488,734          $2,007,129
"Questioned costs identified by the GIG in various audits conducted from January 2008 to June 2012 (see footnote number 2 on page 1).
'Six loans purchased by the SBA as of May 21, 2012.
-The SBA had not purchased these loans at the completion of the previous audits. Therefore, the GIG did not report questioned costs on these
 two loans in the previous audit reports.




                                                                    14 

Appendix III. Management Comments




                                                u.s. SMALL BUSINESS ADMINISTRATION
                                                           WASHINGTON, D.C. 20416




                                                    MEMORANDUM 

                                                     July 24, 2012 



To:         John Needham
            Assistant Inspector General for Auditing

From:       John A. Miller
            Director, Office of Financial Program Operations

Subject:        Response to Draft Advisory Memorandum on A Detailed Repayment Ability Analysis is
                needed on High-Dollar Early-Defaulted Loans to Prevent Future Improper Payments,
                Project No. 12002

Thank you for the opportunity to review the draft memorandum. The report outlines the OIG's concerns
regarding the National Guaranty Purchase Center's (NGPC) assessment of the quality and accuracy of
delegated lender underwriting practices on high dollar early default loans. The report also contained an
estimate of the amount of federal funds which could be saved if these underwriting practices were
thoroughly reviewed.

The Office of Financial Program Operations (OFPO) is fully committed to eliminate improper payments
from all SBA loan programs. SBA enhanced its training for the lending industry to include additional
emphasis on credit underwriting quality, and provided case examples of extremely poor credit analyses
that warranted denial of liability. NGPC has been training staff in the areas of credit underwriting and
commercial credit. In April of this year, SBA commercial underwriting experts conducted credit
underwriting training sessions in the NGPC for loan specialists and supervisors. During May, NGPC
conducted IPERA training for all guaranty purchase loan specialists and supervisors, with an emphasis on
credit underwriting. SBA also recently procured commercial loan credit correspondence training courses
for NGPC loan specialists and supervisors. Finally, OFPO conducts quality control feedback training for
center staff, and is emphasizing the importance of high dollar early default loans. These focused efforts
will continue as part of OF PO and NGPC's ongoing efforts to assist loan specialists in enhancing their
knowledge and skills in identifying material deficiencies in all loan guaranty purchase reviews, including
the area of credit underwriting.

In addition, the Associate Administrator for the Office of Capital Access and the Directors of the Office
of Credit Risk Management, Office of Financial Assistance, and OFPO have agreed to form a working
group to review the sections of the SOP 50 105 to address repayment assessment to determine if more
                                                    15
clarity and direction is required for lenders and staff to consistently apply consistent underwriting
standards.

The report estimated SBA could save $43 million ifNGPC revises its guaranty purchase review process
to include a detailed repayment ability analysis for high dollar early-defaulted loans. This estimate was
derived by OIG's statistician, and is explained in the appendix to their report. While we agree that there
will be savings by looking more carefully at high dollar early defaulted loans, we are going to have our
statistician review OIG's analysis to determine the accuracy of the $43 million estimate.

As noted above OFPO and NGPC have taken steps to identify and address material deficiencies in credit
underwriting on early-defaulted loans. We believe it is vital to the continued success of SBA's lending
programs that the deficiencies identified in this type of review be material to a loss incurred by SBA in
order to warrant a denial of liability recommendation. Appendix II of the OIG's report contains 8 cases
cited as examples ofloans with repayment ability deficiencies. We do not agree that all cases warranted
denial for credit analysis alone. There were other factors as well. In at least one case, we denied liability
for loan closing deficiencies, not credit analysis.


Management's response to the recommendations contained in the report follows:

1. 	 Direct the NGPC to revise its purchase process for high-dollar early-defaulted loans
    approved by lenders to verify compliance with SBA's repayment ability requirements,
    including a detailed analysis ofthe lender's computation ofrepayment ability.

OFPO partially agrees, and is in the process of augmenting its purchase review process on high-dollar
early default loans to include identification of material deficiencies in a lender's analysis of repayment
ability. Recent process improvements have already been made, including allocating additional review
time for high dollar early defaults. Also, SBA will conduct an analysis of the OIG's $43 million estimate
of funds for better use.

2. 	 Properly train NGPC purchase staffin the revised purchase process to perform effective
     analyses oflender's repayment ability computations and verify compliance with SBA
     requirements.

OFPO agrees, and will continue to train NGPC purchase staff in the revised purchase process to perform
effective analyses oflender's repayment ability computations and verify compliance with SBA
requirements.

3. 	 Perform a risk assessment to determine ifit is beneficial for purchase reviews ofother (less
     than $500,000) lender approved early-default loans to include a detailed analysis ofthe
     lender's computation ofrepayment ability.

OFPO agrees, and will perform a risk assessment to determine if it is beneficial for purchase reviews of
other (less than $500,000) lender approved early-default loans to include a detailed analysis of the
lender's computation of repayment ability.




                                                     16
